  U.S. Department of the Interior
  Office of Inspector General




             AUDIT REPORT


     OPERATION AND MAINTENANCE OF
   GOVERNMENT FURNISHED QUARTERS,
   EASTERN NAVAJO AND FORT DEFIANCE
AGENCY OFFICES, BUREAU OF INDIAN AFFAIRS

              REPORT NO. 97-I-1166
                SEPTEMBER 1997
             United States Department of the Interior
                                        A




                           OFFICE OF INSPECTOR GENERAL
                                   Washington, DC. 20240

                                                                sEp29fgg7
MEMORANDUM

TO ..

FROM:


SUBJECT SUMMARY:            Final Audit Report for Your Information - “Operation and
                            Maintenance of Government Furnished Quarters, Eastern
                            Navajo and Fort Defiance Agencv Offices, Bureau of Indian
                            Affairs” (No. 97-I-l166)      *

Attached for your information is a copy of the subject final audit report. The objective
of the audit was to determine whether the Eastern Navajo and Fort Defiance Agency
Offices complied with Federal requirements regarding: (1) the accounting for and
expenditure of the quarters’ rental receipts and (2) the maintenance and occupancy of the
quarters. The audit was requested by the Department of the Interior’s Office of
Construction Management.

We found that revenues from the rental of Government furnished quarters were deposited
into a special fund and were used for the operation, maintenance, and repair of housing
units within the quarters program of the two agency’s offices. We also found that while
the Eastern Navajo Agency complied with requirements for the maintenance and rental of
quarters, the Fort Defiance Agency did not and that neither agency complied with the
requirements governing the occupancy of Government furnished quarters. Specifically,
we found that: (1) quarters were poorly maintained and deteriorating, requests for bills of
collection for delinquent rents either were not prepared or were not prepared timely, and
agreements for temporary use of housing either were not prepared or were not properly
executed by the Fort Defiance Agency and (2) personnel records to support that occupancy
was required for Bureau employees were not prepared by either agency office. In
addition, neither agency office performed annual quarters needs assessments to determine
the number of quarters necessary for Bureau operations.

In its response, the Bureau agreed with all five of the report’s recommendations. Based
on the response, we considered three recommendations resolved and implemented and two
recommendations resolved but not implemented.

If you have any questions concerning this matter, please contact me at (202) 208-5745 or
Mr. Robert J. Williams, Assistant Inspector General for Audits, at (202) 208-4252.


Attachment
                                                                       C-IN-BLA-007-96


             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20240

                                                                  SEP I 5 W


                                 AUDIT REPORT

Memorandum

To .I      Assistant Secretary for Indian Affairs

From:      Robert J. Williams
           Assistant Inspector

Subject:   Audit Report on the Operation and Maintenance of Government Furnished
           Quarters, Eastern Navajo and Fort Defiance Agency Offices, Bureau of Indian
           Affairs (NO. 97-I-1166)

                                 INTRODUCTION
This report presents the results of our audit of the operation and maintenance of
Government furnished quarters by the Eastern Navajo and the Fort Defiance Agency
Offices, Bureau of Indian Affairs. The audit objective was to determine whether the
agencies complied with Federal requirements regarding: (1) the accounting for and
expenditure of the quarters’ rental receipts and (2) the maintenance and occupancy of the
quarters. The audit was requested by the Department of the Interior’s Office of
Construction Management.

BACKGROUND

The Bureau of Indian Affairs manages approximately 4,OOO quarters (single family houses
and multiple family dwellings) located throughout the United States. The Navajo Area
Office is responsible for 2,488 of these quarters, which are occupied predominantly by
Bureau education perxnnel such as teachers and custodians. Within the Area Office, the
2,488 quarters are administered by five agency offices: Chinle (612 quarters), Fort
Defiance (489 quarters), Eastern Navajo (454 quarters), Western Navajo (679 quarters),
and Shiprock (254 Quarters).

Federal legislative and regulatory requirements for the administration of Government
furnished quarters are presented in the Departmental Quarters Handbook (400 DM), which
contains uniform guidelines for acquiring, utilizing, managing, and disposing of
Government furnished quarters. The Handbook (400 DM 17.3) requires bureaus to
establish controls to ensure that quarters rental income is spent only for the operation and
management of the quarters program, including maintenance, repair, and alteration of
quarters, and for directly related overhead. The use of rental income for quarters
maintenance and operation is in addition to other maintenance funds contained in bureau
budgets. Regarding required occupancy, the Handbook (400 DM 8.1) states that an
agency may require an employee to occupy Government furnished quarters on a rental
basis when occupancy is required to provide a necessary service such as the protection of
life and property or when the employee is subject to frequent callback or emergency
duties. The Department of the Treasury Asset Management Manual, Volume I, “Managing
Federal Receivables, ” provides agencies with standards, guidelines, and procedures for
managing all receivables, including rental income.

During fiscal year 1995, the Navajo Area Office obligated !$4,171,000 of the $4,952,000
available (rental collections of $4,166,000 and unobligated funds of $786,000 that were
carried over from fiscal year 1994) for the maintenance and repair of quarters. For fiscal
year 1995, the Fort Defiance Agency obligated $1,077,000 of $1,271,000 received and
the Eastern Navajo Agency obligated $922,000 of $983,000 received for quarters
maintenance and repairs.

SCOPE OF AUDIT
We reviewed documents such as rental agreements, bills for collection, occupancy reports,
maintenance schedules, purchase orders, and payrolls for quarters-related transactions at
the Fort Defiance and Eastern Navajo Agencies that occurred from October 1994 through
June 1996. We selected these two agency offices for review based on recommendations
of the Navajo Area Offke. Our audit included visits to or contacts with the National
Quarters Officer in Washington, D.C.; the Bureau’s Facilities Management and
Construction Center in Albuquerque, New Mexico; the Navajo Area Office in Gallup,
New Mexico; the Fort Defiance Agency in Fort Defiance, Arizona; the Eastern Navajo
Agency in Crownpoint, New Mexico; and eight other locations (schools) in Arizona and
New Mexico where quarters were located (see Appendix 2).

Our audit was conducted from March through July 1996 in accordance with the
“Government Auditing Standards,” issued by the Comptroller General of the United
States. Accordingly, we included such tests of records and other auditing procedures that
were considered necessary under the circumstances. As part of our review, we evaluated
the internal controls related to the maintenance and operation of Government furnished
quarters within the Bureau. Our evaluation disclosed weaknesses regarding maintenance
of the quarters, collection of overdue rent, documentation of qualifications for required
occupancy, and disposal of excess quarters. These weaknesses are discussed in the Results
of Audit section of this report. If implemented, our recommendations should strengthen
the internal controls in these areas.
We also reviewed the Secretary’s Annual Statement and Report to the President and the
Congress, which is required by the Federal Managers’ Financial Lntegrity Act of 1982, for
fiscal year 1995 to determine whether any reported weaknesses were directly related to the
scope of our audit. The report cited weaknesses in the areas of maintenance and repair of
facilities, annual inventories of real property, and debt collection.

PRIOR AUDIT COVERAGE
Neither the General Accounting office nor the Office of Inspector General has audited the
Bureau’s Government furnished quarters within the past 5 years. However, on
December 10, 1993, the Acting Director, Offke of Construction Management, issued the
report entitled “Recommendations Concerning Bureau Administered Government
Housing. ” This report contained summary recommendations and suggestions for
improving the management of Bureau quarters. Specific recommendations pertaining to
our audit objective were that the Bureau should mandate that agency of&s prepare
comprehensive financial and management plans that include an annual updated inventory
of required repairs, an annual maintenance plan, and an annual budget which includes
income and expense projections; develop an alternative to individual rent collection to
address the small amounts of rent collected from individuals who are not Department of
the Interior employees; and institute an aggressive program to review the rent collection
practices and correct errors found immediately. During our current review, we found that
similar conditions existed at the Navajo Area. In addition, we found that the Bureau
had not officially distributed the report to area and agency off&s or implemented the
recommendations.

                              RESULTS OF AUDIT
We found that revenues from the rental of Government furnished quarters were deposited
into a special fund and were used for the operation, maintenance, and repair of housing
units within the quarters program of the Eastern Navajo and Fort Defiance Agencies. We
also found that while the Eastern Navajo Agency complied with requirements for the
maintenance and rental of quarters, the Fort Defiance Agency did not, and that neither
agency complied with the requirements governing the occupancy of Government fiunished
quarters. Specifically, we found that: (1) quarters were poorly maintained and
deteriorating, requests for bills of collection for delinquent rents either were not prepared
or were not prepared timely, and agreements for temporary use of housing either were not
prepared or were not properly executed by the Fort Defiance Agency and (2) personnel
records to support that occupancy was required for Bureau employees were not prepared
by the Eastern Navajo and Fort Defiance Agency Offices. In addition, neither agency
office performed annual quarters needs assessments to determine the number of quarters
necessary for Bureau operations. We believe that the lack of progress by the Bureau in
implementing the recommendations in the December 1993 report issued by the Office of
Construction Management contributed significantly to the deficiencies noted during our
review of the two agencies. Additionally, the Fort Defiance Agency Housing Manager
stated that because the Agency Superintendent eliminated the Housing Management

                                             3
Assistant position, the Housing Manager had to perform the duties of both positions,
which did not afford enough time to perform both functions effectively. As a result of
these conditions, some quarters had unsafe and unhealthy conditions, such as broken
windows and loose or missing floor tiles; rents due of approximately $41,300 had not been
collected; and ineligible employees may have been designated as requiring occupancy.
Further, the Bureau said that about $155,000 annually was needed to maintain vacant
quarters at the Eastern Navajo and Fort Defiance areas.

Maintenance of Quarters
The Handbook (400 DM 7.2 and 7.3) requires the Bureau to ensure that: (1) all occupied
quarters are safe, decent, sanitary, and energy efficient; (2) fire protection devices are
installed and inspected so that they are in working condition; and (3) housing maintenance
plans are established so that intermediate and long-term maintenance needs are identified
and completed.

We found that both the Eastern Navajo Agency and the Fort Defiance Agency generally
complied with regulations regarding fire protection. In addition, we found that
Government quarters located within the Eastern Navajo Agency were effectively
maintained and were generally in good condition. The maintenance department at the
Eastern Navajo Agency consisted of three maintenance work centers, which were
responsible for the maintenance of facilities and quarters within the Agency’s general
location. Each work center had at least one full-time maintenance employee assigned to
quarters maintenance and several skilled craft employees who were assigned to Quarters
maintenance as needed. Weekly planning sessions were held between the housing and the
maintenance staffs to develop and update both short- and long-term maintenance
requirements. The planning sessions identified specific repairs and routine maintenance
to be performed and assigned maintenance employees to perform the specific tasks.

However, the Government quarters located within the Fort Defiance Agency, except for
the Wide Rums Boarding School, were poorly maintained and deteriorating. Specifically,
the houses had holes and cracks in the walls and ceilings, floor and wall tiles that were
missing or that required replacement, plumbing fixtures that were leaking, and windows
that were cracked and broken. Additionally, we believe that some of the quarters
identiCed by Fort Defiance Agency facility management as available for tenants may not
have been ready for occupancy. Specifically, these quarters needed to have doors,
windows, and vinyl floors repaired or replaced; general household cleaning performed;
and house interiors and exteriors painted.

These maintenance deficiencies existed because the Fort Defiance Agency had not
developed required plans or schedules to guide the performance of routine maintenance,
as was recommended in the 1993 report. Specifically, the 1993 report stated that the
Bureau should mandate that agencies prepare an annual plan which includes a housing
management element, an updated inventory of required repairs, an annual maintenance
plan, and a budget that includes income and expense projections. However, we found that
the Agency performed emergency maintenance (that is, needed repairs usually identified
by tenants such as broken windows) on a first-come-first-served basis. After completing
emergency maintenance, the maintenance staff focused their efforts on renovating vacant
quarters instead of performing routine maintenance for occupied quarters, such as
repairing leaky plumbing, patching and painting interior and exterior surfaces, and
inspecting houses to identify problems and to prevent more- costly repairs.

Collection of Rents
The Department of the Treasury Asset Management Manual, Volume I, “Managing
Federal Receivables, ” states that agencies should have an “aggressive” program to recover
delinquent debt. In addition, the Bureau Manual (42 BIAM Supplement 3, 3.8A3)
requires debts due the Bureau to be promptly billed, routinely monitored, and pursued
aggressively. However, the Fort Defiance Agency Housing Manager had not requested
the Division of Accounting Management to issue bills of collection for delinquent rents
that were owed by tenants. Specifically, as of March 1996, the Fort Defiance Agency had
20 (5.8 percent) of 345 tenants who had delinquent rents, including some rents that were
almost 4 years overdue, as follows: 16 Navajo Housing Authority tenants owed rents
totaling $17,900 dating back to March 1995; the Navajo Area Soil Conservation Office
owed rents totaling $21,400 for two Government quarters since October 1992; and two
tenants owed rents totaling $2,000 dating back to October 1995 and February 1996,
respectively.

In other instances, we found that the Fort Defiance Agency housing manager did not
request that bills for collection be issued on a timely basis to former Bureau employees
who resided in Bureau housing. 1 For example, in January and February 1996, the Agency
housing manager requested the Division of Accounting Management to prepare six bills
for collection, totaling $7,600, for rent dating back to March 1995. However, in all six
instances, the tenants had vacated the quarters from 12 to 200 days before the collection
action was requested, and, at the time of our review, the rents had not been collected.

Regarding quarters rented to the Navajo Housing Authority, we found that 4 quarters were
rented to the Authority without written agreements and 23 quarters were rented based on
an agreement between the Fort Defiance Agency Superintendent for Education, the
Authority Housing Manager, and the principal of the Greasewood Boarding School.
However, the agreement was not executed in accordance with requirements for the interim
use of nonexcess and excess quarters by non-Federal tenants. Specifically, the Handbook
(400 DM 5.3) requires “approval from the program Assistant Secretary (but not GSA
[General Services Administration]) prior to renting nonexcess quarters to non-Federal
tenants” and the use of a “revocable license” for all leases of nonexcess quarters to non-
Federal tenants. The “revocable license” includes general conditions such as an



quarters by non-Federal tenants, including former Department of the Interior employees, pending future use
by the Bureau or pending disposal.

                                                    5
indemnification to hold the Federal Government harmless against any liability attributable
to personal injury or death resulting from the occupancy of the quarters. The Agency
Superintendent for Education, however, did not obtain the approval of the Assistant
Secretary for Indian Affairs or use the revocable license.

Regarding delinquent rents from non-Bureau employees, the December 1993 report stated:

     The Bureau should develop an alternative to individual rent collections to address
     the low levels of rent collection among non-Bureau employees. Under this
     agreement, the tenant’s employer would act as the guarantor of the rents and
     collect the payments for the Bureau. The system would reduce losses due to
     delinquencies. Also, the performance standards of managers should be tied
     directly with the issue of delinquencies.

We found that debt collection activities were not administered adequately because the
Agency Housing Manager did not routinely monitor the status of rental payments. The
Housing Manager stated that he did not have time to monitor rental payments because he
had to perform his duties and the duties of the Housing Management Assistant.2 The
position of the Housing Management Assistant was eliminated by the Agency
Superintendent in November 1995. Because of inadequate management of rent collections,
the Agency had delinquent rental receivables totaling $41,300 that were not recorded in
the Bureau’s Federal Financial System.

Required Occupancy of Quarters

The Eastern Navajo and Fort Defiance Agencies did not comply with required occupancy
provisions of the Handbook. The Handbook (400 DM 8.1B) states that all of the
following requirements have to be met to receive required occupancy certification:
(1) occupancy is required for providing a necessary service or for the protection of life and
property; (2) occupancy is required as a condition of employment and is specified as a
condition of employment in the job announcement, position description, and the personnel
action form; and (3) occupancy is required for the convenience of the employer, not the
employee. The Handbook further states that “[a]11 determinations of required occupancy
shall be in writing . . . based upon the justification and recommendations submitted in
writing on Form DI 1872, Certification of Required Occupancy” and approved by the
“regional/area director. ”

Based on our review of job announcements, position descriptions, and the personnel action
forms related to 100 employees identified as required occupants (50 at each agency office),
we found that the records did not specify that required occupancy was identified as a


the expenditure of quarters rental receipts, meeting with renters, inspecting and monitoring the inspection
of Quarters, reviewing applications for cxcupancy, processing tenant complaints, ad ensuring that rents are
dlected. Duties of the Housing Management Assistant include inspecting qyarters after they are vacated,
preparing shop orders, verifying tenant applications, preparing requisitions, and cxxdinating quarters repairs.
condition of employment. In addition, based on our review of required occupancy
certificates at 4 of 25 locations (at the two agencies reviewed), we believe that the types
of positions identified as required occupancy may not be required for the protection of life
and property and may not be subject to frequent callback or emergency duties. For
example, at the Wide Ruins Boarding School, tenants who were identified as required
occupants included a bus driver, a janitor, a cook, and three educational aides. At the
Crown Point Community School, 26 tenants who were identified as required occupants
included a teacher, a painter, an automation clerk, an equipment operator, and a School
department head. The rental payments of Bureau employees who have certifications of
required occupancy are deducted from the employees’ gross income for the purposes of
reporting wages for both Federal and Social Security taxes. Consequently, employees
who are designated inappropriately as requiring occupancy receive reduced tax liabilities
to which they are not entitled.

Although the Handbook (400 DM 5.2 and 5.3) provides for the occupancy of quarters by
employees, contractors, and other persons who provide incidental service in support of
Government programs, the Handbook (400 DM 4.4) also requires that prompt action be
taken to dispose of quarters not essential to the accomplishment of a bureau mission.
Specifically, the Handbook states, “Housing should not be retained for use as GFQ
[Government Furnished Quarters] merely because it is available. ” Therefore, we believe
that the Bureau should identify housing essential to its operations and dispose of unneeded
housing, which should reduce the Bureau’s maintenance requirements.

This issue was also addressed in the Office of Construction Management 1993 report,
which stated that the “current practice in the Bureau suggests there is insufficient policy
direction from the Central Office which identifies those individuals as Required
Occupants.” The report recommended that the objectives for required services be clarified
and that job categories of employment which should be specified as required occupants be
identified. We also found that, in general, Agency Superintendents for Education did not
comply with the requirements that occupancy should be specified as a condition of
employment in job announcements, position descriptions, and personnel action forms. We
also noted one instance in which required occupancy certificates were approved by the
Director, Office of Indian Education, instead of the Area Director, who is the authorized
approving official.

Vacant and Excess Quarters
We found that the Fort Defiance and the Eastern Navajo Agencies did not conduct
required annual housing needs assessments and properly dispose of excess houses. The
Handbook (400 DM 4.4) requires a bureau to conduct annuaI surveys of quarters to
determine the number of quarters needed within bureau programs. The Handbook (400
DM 4.5) further states that quarters not currently used by bureau employees or for the
protection of property “shall be regarded as unneeded, and shall be promptly disposed of
by the holding bureau.” However, Bureau records indicated that 63 (15 percent) of 408
quarters units at all 13 Fort Defiance Agency locations and 53 (16 percent) of 337 units
at all 18 Eastern Navajo Agency locations were vacant. Further, the records indicated that
26 (41 percent) of the 63 vacant units at the Fort Deft Agency and 21 (40 percent) of
the 53 vacant units at the Eastern Navajo Agency had been vacant for more than 1 year.
We also found that another six units were being used for storage and that two units being
used as classrooms had not been removed from the quarters inventory at the Fort Defiance
Agency.

We believe that non-Bureau tenants occupying Bureau housing is another indication that
excess quarters may exist. For example, since September 1994, 27 Navajo Housing
Authority tenants (non-Bureau) have occupied 23 quarters at the Greasewood location and
4 quarters at the Chuska/Tohatchi locations. The Bureau was informed of excess
conditions in the 1993 report, which estimated a Bureauwide housing surplus of 31 percent
and specifically identified housing surpluses of 41 percent at the Greasewood location and
50 percent at the ChuskaITohatchi location.

We found that vacant and excess quarters existed because agency offkials had not
performed annual quarters needs assessments (last performed in 1992) to determine the
number of quarters necessary for Bureau operations, as required by Bureau policies and
procedures. However, we noted that in 1990, the Bureau contracted for a Bureauwide
housing assessment. The goals of the assessment were to: (1) inventory the conditions and
identify rehabilitation required to bring Bureau employee housing up to acceptable
conditions and estimate associated costs; (2) determine what employee housing was
required to meet Bureau needs; (3) acknowledge and integrate existing Federal policies,
standards, and procedures as required into the study methodology; (4) develop policy
recommendations on providing Bureau housing; and (5) develop a survey methodology that
can be replicated by Bureau personnel in continuing studies. A preliminary report on the
assessment was issued in October 1995. The preliminary report identified 105
(35 percent) of 300 quarters as vacant at 7 of 13 Fort Defiance Agency locations and 50
(17 percent) of 302 quarters as vacant at 6 of 18 Eastern Navajo Agency locations. The
Bureau estimated that it would need $155,000 to maintain vacant quarters at these two
agencies.

Recommendations
We recommend that the Assistant Secretary for Indian Affairs ensure that:

   1. Facility and housing managers at the Fort Defiance Agency develop and implement
annual and long-range plans to identify and correct housing maintenance deficiencies.

   2. Housing managers at the Fort Defiance Agency collect delinquent rents consistently
and timely.                                                        .

    3. Agreements for the temporary use of quartem by non-Federal tenants are executed
in accordance with requirements of the Departmental Manual.
    4. Policies and procedures are developed and implemented so that compliance with
the “required occupancy” requirement of the Departmental Manual is ensured and that
specific job classifications which should be classified as “required occupants” are
identified.

    5.
not essential to Bureau operations are disposed of as appropriate.

Bureau of Indian Affairs Response and Office of Inspector General Reply
In the July 8, 1997, response (Appendix 3) to the draft report from the Assistant Secretary
for Indian Affairs, the Bureau concurred with the five recommendations. Based on the
Bureau’s response, we consider Recommendations 1, 3, and 4 resolved and implemented
and Recommendations 2 and 5 resolved but not implemented. Accordingly, the
unimplemented recommendations will be referred to the Assistant Secretary for Policy
Management and Budget for tracking of implementation (see Appendix 4).

In its response, the Bureau requested that we revise the Prior Audit Coverage and Results
of Audit sections of this report where we referred to information contained in the
December 1993 report “Recommendations Concerning Bureau Administered Government
Housing,” issued by the Acting Director, Office of Construction Management. The 1993
report contained summary recommendations and suggestions for improving the
management of Bureau quarters. Since the scope of our current audit was limited to the
Navajo Area, the Bureau suggested that we qualify our use of information in the 1993
report to the Navajo Area and the two agencies reviewed. The Bureau also requested that
we delete, in the section “Collection of Rents” in our current report, reference to the
statement in the 1993 report that the Bureau should develop an alternative method of rent
collections for non-Bureau employees. The Bureau said that it requested this deletion
because, “[wlhile alternatives have been considered, the alternative available to the area
off&s under 43 Blame pureau of Indian Affairs Manual] is limited to Federal agencies”
and because our current audit report “deals only with the Navajo Area Office and makes
no recommendation relating to the development of an alternate procedure. ”

Based on the Bureau’s comments, we have revised portions of both sections to clarify that
the scope of our review was limited to the Navajo Area and the two agencies. We did not
delete the reference in the section “Collection of Rents” because we believe that this
statement is relevant to the finding in that most delinquent rents were from non-Bureau
employees and to the Bureau in its efforts to revise the Bureau of Indian Affairs Manual.
In that regard, the response stated that the Bureau Manual (43 BIAM) limits alternatives
to rent collections to Federal agencies. Consequently, we believe that the collection of
rents from non-Federal agencies needs to be addressed by the Assistant Secretary’s Office
in its “Bureau-wide effort to revise the Indian Affairs Manual.”

Although the Bureau concurred with Recommendation 4, which related to required
occupancy, it said that we had identified various staffing positions as not appropriate for

                                            9
consideration of the required occupancy designation that must be available to provide
coverage during emergencies. The Bureau stated, “[Wlhile we will strive to limit the
number of positions identified for required occupancy, designating an appropriate mix of
types of positions and an adequate number of positions for required occupancy is
necessary, especially at boarding schools. ”

We did not conclude that the positions were inappropriate for required occupancy
designation but concluded that agencies had not complied with the requirements for
granting employees required occupancy certificates. Without documentation to support
that the positions were appropriate for required occupancy, it appeared to us that some of
the positions that had been granted the certificates may not have met the requirements for
the designations such as a janitor, educational aides, and an automation clerk.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(Appendix l), actions taken to implement audit recommendations, and identification of
each significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau of Indian Affairs personnel in the conduct of our
audit.




                                            10
                                          APPENDIX 1



         CLASSIFICATION OF MONETARY AMOUNTS


                                        FundsToBePut
              Finding Area               To Better Use

Collection of Rents                           $89,900
                                                                APPENDIX 2



                               SITES VISITED




                 OFFICES      .                          LOCATION

Navajo Area Off&                               Gallup, New Mexico
   Ft. Defiance Agency Office                  Ft. Defiance, Arizona
   Ft. Defiance (Headquarters)                 Ft. Defiance, Arizona
   Window Rock                                 Window Rock, Arizona
       Wide Ruins Boarding School              Wide Ruins, Arizona
       Greasewood Boarding School              Greasewood, Arizona
       Kinlichee Boarding School               Kinlichee, Arizona
       Chuska Boarding School                  Chuska, kiZOM
   Eastern Navajo Agency Off&                  Crownpoint, New Mexico
   Crownpoint (Headquarters)                   Crownpoint, New Mexico
       Crownpoint Community School             Crownpoint, New Mexico
       Wingate High School                     Wingate, New Mexico
       Pueblo Pint-ado Community School        Pueblo Pintado, New Mexico
       D&h-Na-0-Dith-Hle Community School      Dzilth-Na-0-Dith-Hle, New Mexico




                                       12
                                                                                       APPEMILX 3
                                                                                      Page 1 of 3

                 United States Department of the Interior
                                    OFFICE OF THE SECRETARY
                                                                                  ,
                                         Washington, D.C. 20240




Memorandum

To ..     Assistant Inspector General for Audits

From:     Assistant Secretary - Indian Affairs

Subject: Draft Audit Report, “Operation and Maintenance of Govemment Fumished Quarters,
         Eastern Navajo and Fort Defiance Agency Offices, Bureau of Indian Af!f%rs,” (Assignment
         No. C-IN-BIA-007-96)

The subject audit report reviewed the operation and maintenance of Government furnished quarters
by the Eastern Navajo and the Fort Defiance Agency Offices. The Bureau of Indian Affairs concurs
with the five recommendations in the draft report. However we request revisions to the prior audit
coverage and results of audit sections of the report as suggested below.

    or Audit Coveraw The draft report summarizes the recommendations made in a December
 10, 1993, report entitled “Recommendations Concerning Bureau Administered Government
Housing” prepared by the Office of Construction Management. In response to the report, the Bureau
developed a task force to develop necessary revisions to Bureau policies and procedures. The
Bureau did not distribute the report to the area offices for implementation of the recommendations.
Since the scope of this audit was limited to the Navajo Area Office, we suggest that the wording of
the last sentence of this section be revised to: “During our current review, we found that similar
conditions existed at the Navajo Area”

     Its of Audk For the reasons discussed above, we request that the causal sentence be revised
  4b
to . . . the lack of progress by the Bureau in implementing the recommendations . . . contributed
significantly to the deficiencies noted during our review of the two agencies.”

     Collection of Rea This section again references the December 1993 Office of Construction
Management report. The report states that the Bureau should develop an alternative to individual
rent collections for non-Bureau employees. While alternatives have been considered, the alternative
available to the area offices under 43 BIAh4 is limited to Federal agencies. Since the draft report
deals only with the Navajo Area Office and makes no recommendation relating to the development
of an alternative procedure, we request that this paragraph be deleted.

     &auired Occu~ancv of Onatiers, The examples cited in the report, Wide Ruins Boarding
School and Crown Point Community School are both boarding schools. As such, staff, including
classroom, dormitory, kitchen, facility’s management and transportation personnel, must be available

                                            13
                                                                                      APPEMXX 3
                                                                                     Page 2 of 3
 to provide coverage during periods when roads are impassable because of weather or other
 emergencies. While we will strive to limit the number of positions identified for required
 occupancy, designating an appropriate mix of types of positions and an adequate number of positions
 for required occupancy is necessary, especially at boarding schools.

Our responses to the five recommendations contained in the draft report are provided below:

       mmendation 1; We recommend that the Assistant Secretary - Indian AfXtirs ensure that
facility and housing managers at the Fort Defiance Agency develop and implement annual and long-
range plans to identify and correct housing maintenance deficiencies.

     eau Rewom The Bureau concurs. Fort Defiance will be required to develop the required
annual and long-range maintenance plans. To ensure that the plans address all concerns, the agency
facility and housing mangers will solicit participation Corn all concerned parties, including school
principals, local facility managers, and local housing committees. Fiscal year 1998 annual plans are
due to the Navajo Area Ofke by August 3 1, 1997. The Fort Defiance Housing Manager will be
responsible for developing the required plans.

   commendation 2; We recommend that the Assistant Secretary - Indian Af&irs ensure that
housing managers at the Fort Defiance Agency collect delinquent rents consistently and timely.




statement audit., we consider this recommendation resolved and imnlemented.
                                                                    A




                on 3; We recommend that the Assistant Secretary - Indian A&k ensure that
agreements for the temporary use of quarters by non-Federal tenants are executed inaccordance with
the requirements of the Departmental Manual.

               0~ The Bureau concurs. Agreements for the temporary use of quarters by non-
Federal tenants are being approved by the Navajo Area Director in accordance with the Departmental
Manual. In addition all leases for non-Federal tenants wiII include a “revocable license.” Existing
leases will be revised upon renewal to include the revocable license. We consider this
recommendation resolved and implemented.
                .
  ecommendatroa 4; We recommend that the Assistant Secretary - Indian AfGirs ensure that
policies and procedures are developed and implemented so that compliance with the “required
occupancy requirement of the Departmental Manual is ensured and that specific job classifications
which should be classified as “required occupants” are identified.

         es- The Bureau concurs. Following existing Departmental requirements, Eastern
Navajo and Fort Defiance Agencies have revised position descriptions and modified job

                                             14
                                                                                       APPEMXX 3
                                                                                      Page 3 of 3
announcements to include “required occupancy” as a condition of employment. In addition, all
required occupancy certificates are being approved by the Navajo Area Director.

As part of a Bureau-wide effort to revise the Indian Affairs Manual, Bureau quarters management
policies and procedures are being revised. Specific iob classifications will be classified as “required
occupants.” However, as noted above, we believe that an appropriate mix of types of positions and
an adequate number of positions must be designated as “required occupants” at Bureau schools.
Since the revision of the Bureau quarters management manual section is part of a Bureau-wide effort,
a target date for revision of the manual has not been established. The responsible official is the
Bureau’s National Quarters Officer.

  ecommendation 5; We recommend that the Assistant Secretary - Indian Af&irs ensure that annual
needs assessments of quarters are completed and excess quarters which are not essential to Bureau
operations are disposed of as appropriate.

Bureau Resmnse; The Bureau concurs. The Fort Defiance and Eastern Navajo Agencies will be
required to perform an quarters needs assessments to determine the number of quarters necessary
for agency operations. Upon submission and review of the assessments, the Navajo Area Office will
dispose of the excess quarters following required procedures. The annual quarters needs assessments
are due by December 3 1, 1997. The responsible officials are the agency housing managers.




                                             15
                                                                      APPENDIX 4



          STATUS OF AUDIT REPORT RECOMMENDATIONS


   Finding/
Recommendation
   Reference                                    Action Required

  1, 3, and 4    Implemented.    No further action is required.

   2 and 5       Resolved; not   No fkther response to the Office of Inspector
                 implemented.    General is required. The recommendations
                                 will be referred to the Assistant Secretary for
                                 Policy, Management and Budget for tracking
                                 of implementation.




                                   16
                   ILLEGAL OR WASTEFUL ACTIVITIES
                       SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL BY:


    Sending written documents to:                            Calling:


                        Within the Continental United States

    U.S. Department of the Interior                    Our 240hour
c   Office of Inspector General                        Telephone HOTLINE
    1849 C Street, N.W.                                l-800-424-5081 or
    Mail Stop 5341                                     (202) 208-5300
    Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-354-0996


                       Outside the Continental United States


                                    Caribbean Region

    U.S. Department of the Interior                    (703) Z-9221
    Office of Inspector General
    Eastern Division - Investigations
    1550 Wilson Boulevard
    Suite 410
    Arlington, Virginia 22209




    U.S. Department of the Interior                    (700) 550-7428 or
    Office of Inspector General                        COMM 9-011-671-472-7279
    North Pacific Region
    238 Archbishop F.C. Flares Street
    Suite 807, PDN Building
    Agana, Guam 96910
Toll Free Numbers:
 l-800-424-5081             b
                            w
 TDD l-800-354-0996         5
                            c
FI”‘S/Commercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420

 HOTLl’NE E-
1849 C Street, N.W.         E
                            w -
Mail Stop 5341
Washington, D.C. 20240
